        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report
Bonneville Power Administration's
Acquisition of Transmission-Related
Materials and Equipment




DOE/IG-0824                      September 2009
                              Department of Energy
                                 Washington, DC 20585

                                    September 29, 2009


MEMORANDUM FOR THE ADMINISTRATOR, BONNEVILLE POWER
               ADMINISTRATION

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                   INFORMATION: Audit Report on "Bonneville Power
                           Administration's Acquisition of Transmission-Related
                           Materials and Equipment"

BACKGROUND
Bonneville Power Administration (Bonneville) is responsible for marketing, selling and
transmitting power produced from the Federal Columbia River Power System.
Bonneville manages a significant transmission infrastructure, including about 15,000
miles of transmission lines and 300 substations in eight states. To fulfill its mission,
Bonneville acquires transmission-related materials and equipment including transformers,
circuit breakers, and steel and wood poles. From October 2002 through May 2008,
Bonneville made approximately 5,200 transmission-related acquisitions totaling over
$162 million. Bonneville acquired these materials through various types of contracts,
including fixed price contracts and indefinite delivery/indefinite quantity contracts.

Bonneville established controls designed to help ensure that its acquisitions were "best
buys" and that the procurement strategy was in its best interest. Specifically, Bonneville
required officials to: (1) evaluate contract awards to determine whether they represented
best buys; (2) review expiring contracts to determine if extensions were in Bonneville's
best interest; and, (3) forecast needs to facilitate economic procurement decisions. Under
Bonneville's operating procedures, these determinations were to be made by evaluating
factors including total cost, technical features, quality and adaptability, and vendor past
performance. Because of the significant value of its acquisitions, we initiated this audit
to determine whether Bonneville's acquisition program met its goals and objectives.

RESULTS OF AUDIT

Bonneville had not always effectively implemented controls for ensuring that
transmission-related acquisitions were best buys and in its best interest. Specifically, of
the 86 acquisitions, valued at nearly $90 million, that we reviewed, Bonneville had not:

   •   Performed the required best buy analyses to support 29 acquisitions valued at
       about $7.5 million. For 15 of these acquisitions totaling $2.9 million, information
       was available to establish the difference between the actual award price and the
                                             2


       lowest price available. In these cases, Bonneville paid $1 million more than the
       lowest price available;

   •   Extended the performance period of two expired, indefinite delivery/indefinite
       quantity contracts without evaluating whether the contracts continued to be in its
       best interest. Bonneville made purchases amounting to approximately $3.6
       million during the extended performance period under these contracts. Because
       the evaluation was not performed as required, we were unable to determine
       whether purchases were the best buys available; and,

   •   Established controls to ensure that required forecasting was actually performed as
       part of its procurement process. We identified 45 acquisitions for high-impact
       items, such as transformers and circuit breakers, where support was not available
       to document that forecasts had been made and that users had adequately
       communicated their needs to procurement. Forecasting acquisition needs is
       significant because certain transmission-related materials and equipment, such as
       transformers, may have a delivery time of 18 months or longer; and in some
       cases, are critical to the continued operation of the electricity grid.

Bonneville had not taken timely action, and in some instances had taken no action, to
correct previously identified weaknesses in its controls for ensuring that transmission-
related acquisitions were best buys and in its best interest. A Fiscal Year 2006 review by
Bonneville's Head of Contracting Activity (HCA) reported that Bonneville had not
enforced requirements for program offices to ensure that acquisitions were always
supported by complete "best buy" analyses and that acquisition forecasts were submitted
as required. Bonneville had not ensured that these problems were addressed and did not,
as recommended by the HCA, develop a standard format for documenting contract award
decisions. Although Bonneville initiated action to enforce its acquisition forecast
requirements in 2008, nearly two years after the problem was identified, a 2008 HCA
report noted that Bonneville's involvement in advance planning remained inconsistent
and inefficient. These conditions directly parallel those disclosed during our audit,
factors which form the basis of this report.

Our review identified over $11 million in transmission-related acquisitions that were
awarded without assurance that the acquisitions were in Bonneville's best interest.
Further, Bonneville is at risk of awarding future contracts without the assurance that they
will provide the best value for ratepayers. As a result of Bonneville not always ensuring
that best buy analyses were performed and procurement needs consistently forecasted,
ratepayer dollars may not have been used in a cost effective manner.

We made several recommendations designed to help improve Bonneville's acquisition of
transmission-related materials and equipment. The importance of implementing these
recommendations will grow over time, given the increase in Bonneville's borrowing
authority by $3.25 billion for transmission expansion authorized under the American
Recovery and Reinvestment Act of 2009.
                                           2

MANAGEMENT REACTION

Bonneville officials generally agreed with the audit recommendations and stated that they
had implemented necessary improvements. Management, however, did not fully agree
with the findings of our report. Specifically, management disagreed with the potential
dollar impact of the control weaknesses on ratepayers. Management also stated that
procurement forecasting had been achieved through a continuous interactive process
between contracting officers and clients. Further, management indicated that contracting
officers strive to make best buy decisions on all procurements. While noting that
contracting officers have flexibility in determining the required level of documentation,
management agreed that better documentation of best buy analyses in award decisions
was needed and committed to making further improvements.

Management's proposed actions are generally responsive to our recommendations. With
respect to monetary impact, we acknowledge that Bonneville benefitted from the
products acquired through the acquisitions discussed in this report. Our concern
however, is that management cannot be assured that the $11 million spent on those items
was the best buy for Bonneville ratepayers.

Management's comments are included in their entirety in Appendix 3.

Attachment

cc:   Deputy Secretary
      Chief of Staff
      Team Leader, Office of Internal Review, CF-1.2
      Bonneville Power Administration Liaison Office
      Audit Liaison, Bonneville Power Administration
REPORT ON BONNEVILLE POWER ADMINISTRATION'S ACQUISITION
OF TRANSMISSION-RELATED MATERIALS AND EQUIPMENT


TABLE OF
CONTENTS

Acquisitions of Transmission-Related Materials and Equipment

Details of Finding……………………………….......…………………………………….1

Recommendations and Comments ……………………………………………...……..…4


Appendices

1. Objective, Scope, and Methodology.…………………………………………………6

2. Related Audit Reports …………..…………………………………………………....8

3. Management Comments ………………………………………..…………...……..…9
ACQUISITIONS OF TRANSMISSION-RELATED MATERIALS AND
EQUIPMENT                                                                          ___

Achieving a     Bonneville had not always implemented controls for ensuring that
"Best Buy"      transmission-related acquisitions were best buys and in its
                best interest. Specifically, of the 86 acquisitions totaling
                $89.7 million that we reviewed, Bonneville had not:

                   •   Performed the required best buy analyses to support 29
                       acquisitions valued at about $7.5 million. For 15 of these
                       acquisitions totaling $2.9 million, there was sufficient
                       information to determine the difference between the amount
                       awarded and the lowest price available. In these cases,
                       Bonneville paid $1 million more than the lowest price
                       available;

                   •   Extended the performance period of two expired indefinite
                       delivery/indefinite quantity contracts without evaluating, as
                       required, whether the contracts continued to be in its best
                       interest. In addition, Bonneville had not obtained the Head of
                       Contracting Activity (HCA) required approval for extending
                       two contracts. After the extensions, Bonneville purchased
                       approximately $3.6 million under these contracts. Because the
                       evaluation was not performed, we were unable to determine
                       what, if any, portion of the $3.6 million was the best buy
                       available; and,

                   •   Established controls to ensure that forecasting was part of its
                       procurement process. We identified 45 acquisitions of high-
                       impact items, such as transformers and circuit breakers, where
                       support was not available to document that forecasts had been
                       made as required and that users had adequately communicated
                       their needs to procurement.

                                          Best Buy Analysis

                Bonneville had not performed best buy analyses for 29 acquisitions
                valued at about $7.5 million. Best buy analyses were not completed
                even though Bonneville procurement guidance required that for
                acquisitions of $10,000 or more, best buy analyses, including
                evaluations of price, estimated cost and total cost, be completed and
                summarized prior to award in a Document of Award Decision.

                Bonneville, for example, awarded two consecutive contracts to the
                same vendor without complete best buy analyses. Specifically,
                Bonneville awarded the first contract based on an engineering




Page 1                                                         Details of Finding
         preference for lighter weight and less awkward equipment. The
         decision documentation, however, did not explain the rationale for
         using the engineering preference as a critical determinant rather
         than other criteria including cost, as would have been provided in a
         best buy analysis. Rather, the contracting officer included a note
         in the procurement file stating that cost was not a major factor but
         did not explain the reasons cost was not a major factor. In fact, the
         unit cost of $97.50 awarded was 67 percent higher than the
         alternate vendor's unit price. Bonneville subsequently made a
         second award to the same vendor based on the first contract's
         award decision and at the same unit price as the first contract.
         Under this award, Bonneville made three acquisitions, spending
         approximately $991,000 more than the next lowest available price.
         Further, Bonneville made 12 acquisitions under two contracts with
         another vendor, spending approximately $45,000 more than the
         next available lowest price.
                           Evaluation of Expired Contracts

         Bonneville extended the performance period of two expired
         indefinite delivery/indefinite quantity contracts without evaluating
         whether the contracts continued to be in its best interest. Further,
         Bonneville had not requested in writing and obtained HCA
         approval for two contract extensions. Such approval was required
         by Bonneville procurement guidance because the contracts had
         been expired for three months or more prior to the extension. For
         example, Bonneville twice extended a contract for transformers
         with a maximum value of $6.5 million that originally expired in
         May 2007 without an evaluation of whether the contractual
         arrangement continued to be in Bonneville's best interest. Between
         the date the contract was extended and the time of our review,
         Bonneville purchased approximately $3.6 million under two of
         these contracts. Because the evaluation was not performed, we
         were unable to determine what, if any, portion of the $3.6 million
         was the best buy available.

                 Forecasting the Need for Materials and Equipment

         Bonneville had not established controls designed to help ensure
         that forecasting was actually performed as part of its procurement
         process to facilitate best buy analyses and to ensure that equipment
         was available when needed. Bonneville required the preparation of
         annual forecasts of procurement actions exceeding $50,000. We
         identified 45 acquisitions for high-impact items, such as
         transformers and circuit breakers, where there was no
         documentation indicating forecasts had been made. Forecasting
         acquisition needs is significant because certain transmission-


Page 2                                                   Details of Finding
                    related materials and equipment such as transformers may have a
                    delivery time of 18 months or longer and in some cases, are critical
                    to the continued operation of the grid.

Corrective          Bonneville had not taken timely action, and in some instances
Actions             had taken no action, to correct previously identified weaknesses in
                    its controls for ensuring that transmission-related acquisitions were
                    in its best interest. Bonneville's HCA performs reviews and
                    reports on the procurement function approximately every two
                    years. In its Fiscal Year 2006 review, the HCA reported that
                    acquisitions were not always supported by complete best buy
                    analyses and that Bonneville had not enforced its requirements for
                    program offices to submit acquisition forecasts. The HCA
                    recommended that Bonneville take action to correct identified
                    deficiencies in best buy analyses and to enforce requirements for
                    acquisition forecasts.

                    Bonneville, however, had not identified the actions needed to
                    address missing or inadequate best buy analyses. Bonneville also
                    had not required the use of a standard format for documenting
                    contract award decisions, even though the HCA had indicated in its
                    2006 review that this would help improve consistency and
                    completeness. Further, Bonneville did not take action to enforce
                    its forecasting requirements until late 2008 when it established
                    additional procedures for obtaining two-year forecasts from
                    program managers. Accordingly, the 2008 HCA report continued
                    to note that Bonneville’s Documents of Award Decision used to
                    justify procurements did not always contain sufficient information
                    to explain the rationale for actions to ensure best buys. The report
                    also stated that Bonneville’s involvement in advance procurement
                    planning was inconsistent and inefficient.

                    Bonneville officials had begun an Enterprise Process Improvement
                    Project initiative to address the findings in the 2006 HCA report.
                    However, officials noted that implementation of the process would
                    be lengthy and complex due to the interrelationships of the various
                    functions being reviewed simultaneously.

Effective Use of    As a result of Bonneville not always performing best buy analysis
Ratepayer Dollars   to support its acquisitions and ensuring that forecasting was part of
                    its procurement process, ratepayer dollars may not have been used
                    in a cost effective manner. Our review identified over $11 million
                    in transmission-related acquisitions that were awarded without




Page 3                                                              Details of Finding
                  assurance that they were in Bonneville's best interest. Unless
                  Bonneville addresses previously identified problems in its
                  acquisition of transmission-related equipment, it is at risk of
                  making future acquisitions that are not in its best interest.

RECOMMENDATIONS   To reduce the risk associated with transmission-related
                  acquisitions, we recommend that the Bonneville Administrator
                  direct responsible officials to:

                     1. Hold program officials and acquisition management
                        accountable for the:

                         a. completion of best buy analyses;

                         b. evaluation of proposed extensions of expiring contracts;
                            and,

                         c. preparation of acquisition forecasts.

                     2. Use a standard format for summarizing its award decision,
                        including best buy analysis.


MANAGEMENT        Management generally agreed with the audit recommendations
REACTION          and noted that it had already implemented necessary improvements
                  to address the findings of internal reviews and this audit.
                  Bonneville cited a new Quality Review Checklist and enhanced
                  Purchasing Operating Procedures as positive improvements it had
                  undertaken in response to the audit report's first recommendation.
                  Management also agreed with our recommendation regarding a
                  standard format for its award decisions.

                  Management, however, did not fully agree with the findings of our
                  report. Bonneville did not agree with the audit's conclusion
                  regarding the potential impact on ratepayers. In management's
                  view, Bonneville benefited from the acquisitions and had not
                  misspent the entire dollar value of the procurement. Bonneville
                  stated that contracting officers strive to make best buy decisions on
                  all procurements. While noting that contracting officers have
                  flexibility in determining the required level of documentation,
                  management agreed that better documentation of best buy analyses
                  in award decisions was needed and committed to making further
                  improvements. In addition, management stated that procurement
                  forecasting had been achieved through a continuous interactive
                  process between contracting officers and clients.




Page 4                                        Recommendations and Comments
AUDITOR    Management's actions taken to date and its proposed actions
COMMENTS   are generally responsive to our recommendations. In the absence
           of documentation, management could not always determine that
           best buy decisions considered all relevant procurement criteria
           such as cost and technical needs, or that client needs were
           forecasted to facilitate the timely acquisition of materials. The
           audit noted that in our sample of 86 transactions, Bonneville made
           over $11 million in transmission-related acquisitions without
           documenting the reasons why the acquisitions were best buys.
           While we agree with Bonneville that this does not mean that the
           entire amount was misspent, our concern is that management
           cannot be assured that the $11 million spent on those acquisitions
           was the best buy for Bonneville ratepayers.




Page 5                                                           Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine if Bonneville Power
              Administration’s (Bonneville) acquisition program met its goals
              and objectives.

SCOPE         The audit was performed between April 2008 and August 2009.
              Testing procedures were performed on transmission-related
              acquisition records maintained at Bonneville's Ross Complex
              located in Vancouver, Washington. The scope of the testing
              covered acquisitions from October 2002 through May 2008.


METHODOLOGY   To accomplish the audit objective, we:

                  • Obtained and reviewed laws, regulations, policies, and
                    procedures relevant to Bonneville's acquisition of
                    transmission-related materials and equipment;

                  • Obtained and reviewed prior audit reports;

                  • Held discussions with officials from Bonneville's
                    Headquarters and its Ross Complex;

                  • Gained an understanding of Bonneville's acquisition
                    process for procuring transmission-related materials and
                    equipment;

                  • Analyzed Bonneville's acquisition records from October
                    2002 through May 2008; and,

                  • Selected a judgmental sample of 86 transmission-related
                    acquisitions and reviewed award documentation for
                    compliance with requirements set forth in Bonneville's
                    policies and procedures.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our finding and
              conclusions based on our audit objective. We believe that the
              evidence obtained provides a reasonable basis for our finding and
              conclusions based on our audit objective. The audit included tests
              of controls and compliance with laws and regulations necessary to
              satisfy the audit objective. Because our review was limited, it




Page 6                                    Objective, Scope, and Methodology
Appendix 1 (continued)

                    would not necessarily have disclosed all internal control
                    deficiencies that may have existed at the time of our audit.

                    Also, we considered the establishment of performance measures in
                    accordance with the Government Performance and Results Act of
                    1993 and concluded that specific performance measures
                    concerning the acquisition of transmission-related materials and
                    equipment at Bonneville did not exist. We relied on computer
                    processed data to a limited degree and performed procedures to
                    validate the reliability of the information as necessary to satisfy our
                    audit objective. Our review indicated that the computer-generated
                    data was generally accurate and could be relied upon.

                    We held an exit conference with Bonneville officials on
                    September 10, 2009.




Page 7                                           Objective, Scope, and Methodology
Appendix 2

                             RELATED AUDIT REPORTS



  •   Procurement Administration at Brookhaven National Laboratory (CR-B-02-02, August
      2002). The audit found that while Brookhaven National Laboratory (Brookhaven) had
      initiated certain improvements, it did not always properly administer procurements.
      Brookhaven had not provided adequate training for acquisition staff, implemented
      appropriate control measures, and effectively implemented an assessment and
      performance measurement program. As a consequence, neither the Department of
      Energy nor Brookhaven had full assurance that competition was adequate and that
      procurement awards provided the best value and were in the best interests of the
      government.




Page 8                                                             Related Audit Reports
   DO~ F 1325.8e                 Electronic Form Approved by Forms Mgmt. 04/1912006

   (08-89)

....::U::.:n:.:.:i.:.::te~d:..:S::.:t:.:::at:.::e:.:::s~G~o~v:.::e:.:.;rn:.:.:m:.:.:.:.e:.:.nt=--	   -::-_ _:::-D-=-epartment of Energ1..
                                                                                                      Bonneville Power Administration
  memorandum
            DATE:           July 31, 2009
    REPLY TO
     ATTN OF:	              BPA-NS

     SUBJECT:	              Response to Draft Report on "Audit of Bonneville Power Administration's Acquisition of Transmission­
                            Related Materials and Equipment"

                 TO:        George W. Collard, Assistant Inspector General for Performance Audits - IG-32

                             This is in response to the Inspector General's (IG) Draft Report on "Audit of Bonneville Power
                             Administration's Acquisition of Transmission-Related Materials and Equipment" dated July 8, 2009.

                             We welcome the Inspector General's (IG) audit of our program and its decision to look more closely at
                             our contracting process and how we document our buy decisions through the contracting process. The
                             IG's review follows several internal reviews and a Supply Chain Enterprise-wide Process Improvement
                             (EPIP) effort we initiated in 2006. We agree with the IG's recommendations and, with our parallel EPIP
                             efforts, we have already implemented necessary improvements. Additional supporting information
                             regarding BPA's response and how BPA has implemented the recommendations resides in the Technical
                             Appendix and at: http://www.bpa.gov/corporate/About BPA/audits/.

                             While we agree with the recommendations, we do not fully agree with the findings of the draft report.
                             BPA Contracting Officers strive to make best buy decisions on all of their procurements; however, we
                             acknowledge that some of our flIes do not adequately document those decisions. The Bonneville
                             Purchasing Instructions (BPI) gives Contracting Officers authority to extend contracts if market analysis
                             is completed and the Contracting Officer is assured that the best value for BPA is being achieved.

                             We specifically disagree with the dollar impact and the underlying conclusions that BPA ratepayers were
                             financially harmed. Although a best buy analysis was not documented on all of these purchases, this
                             does not mean that the whole dollar value of the procurement was misspent ($12.3 M). However, we
                             agree that consistent documentation of the best buy analysis by our Contracting Officers would have
                             avoided this uncertainty. We are committed to improving in this area.

                             Additionally, BPA received the transmission equipment and material and used it to meet project and
                             operations and maintenance requirements on our transmission system. BPA could not have procured the
                             material from another source for zero dollars nor met its transmission-related requirements. The dollar
                             levels described in the draft report should be substantially reduced in final report.

                             Best Buy Analysis

                             Improvement of documentation for purchase decisions had been previously identified. However, few, if
                             any, contracts reviewed during the audit indicate that BPA did not make informed decisions of the best buy
                             for the agency. We note and agree with the IG that some documentation supporting best buy decisions was
                             not consistently maintained in formal files [BPI Part 12.8.2].

                             However, our Contracting Officers have procedural flexibility under the BPI to determine the level of
                             required documentation based on the scope, history, size, and complexity of the proposed purchase [BPI
                             Part 4.2.1]. Additionally, it is vital to the reliability of BPA's transmission system for BPA to consider
                             engineering technical requirements as well as material costs. BPA's new Contract Quality Review
                             Checklist and enhanced Purchasing Operating Procedures (POP) 08-07 require detailed analysis of BPA
                                                                                                        2
purchasing decisions. We believe these improvements reflect BPA's EPIP findings and the IG's Best
Buy recommendation (see appendix).

Expired Contracts

Different from the draft report, we determined that only one of the four contracts the IG noted as being
extended without requesting approval from the HCA was extended outside the 90-day time frame
allowed by the BPI. That agreement was tendered to the supplier who did not execute the extension
within 90 days. The POP 05-01 Contract Expiration/Option Notices process is in place to address this
issue (see appendix). The other contracts were extended using procedures in BPI Part 14 (see appendix).

Forecasting

BPA believes that effective forecasting is a best practice because it assists in both quantitative and
qualitative determinations of material purchase requirements for BPA. BPA uses strong relationships
between the Contracting Officers and their customers to monitor and assess future material needs.
Additionally, BPA implemented a formal annual forecasting process in 2007 requiring the signature of a
senior manager. This was accomplished though our internal EPIP effort as a result of a 2006 HCA
review and recommendations (EPIP Forecasting Process C-6 /2007). The forecast received in early 2008
in response to the first call letter was weak but the subsequent forecast received in December 2008 was
exceptional and we expect future forecasts to fully meet expectations as well (see appendix).

In conclusion, we agree with the report that BPA can improve the formal documentation of the analysis
we perform. We also agree that when best buy decisions do not require the five steps, we will include
this determination in our Document of Award Decision. BPA has implemented all of the other
recommendations in the draft report.




Stephen J. Wright
Administrator and Chief Executive Officer

Attachment

cc:
T. Griffin - CF-l.2
D. Williams - CF-1.2
                                                                    IG Report No. DOE/IG-0824

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
